OIG Audit Report GR-30-96-007

United States Marshals Service Intergovernmental Service Agreement for Detention Facilities with Central Falls, Rhode Island
Audit Report GR-30-96-007
April 1996
Office of the Inspector General


Executive Summary


The  Office of the Inspector General (OIG), Audit Division, has completed an audit  of the Intergovernmental Service Agreement (IGA) between the United States  Marshals Service (USMS) AND THE Central Falls Detention Facility Corporation  (CFDFC), a corporation authorized by separate legislation of the State of Rhode  Island and established by the City of Central Falls (City), Rhode Island.  During our audit period (January 1994 through  December 1995), CFDFC billed the USMS as follows:


Contract Item
Calendar Year (CY)


1994
1995


USMS Prisoner Days
20,869
57,452


Billing Rate
$83.64 
$83.64 


   Amount Billed
$1,745,483 
$4,805,285 


 


USMS Transport Guard Hours1
2,073.40
1,072.30


Billing Rate
$14.80 
$17.15 


Amount Billed
$30,686 
$18,390 


 


Total Amount Billed
$1,776,169 
$4,823,675 


The  agreement for the jail-days was signed in August 1991 and was in effect during  the audit period. An October 31, 1994  modification was added to the IGA for transportation and guard services to the  U.S. Courthouse and medical facility for a fixed rate of $14.80 per hour.  This rate was increased to $17.15 per hour  effective August 1, 1995.
Based  on our review, we found that:

USMS  overpayments to CFDFC for jail-day costs amounted to $484,161 and $1,371,379  during CYs 1994 and 1995, respectively; and overpayments to CFDFC for transport  guard costs totaled $2,115 and $2,874 for CYs 1994 and 1995, respectively.
USMS  officials need to negotiate revised billing rates based on historical financial  information.  This is a result of our  questioning the jail-day and transport guard rates for CYs 1994 and 1995.



 

Footnotes

The 1994  billing includes 779.8 hours incurred during Fiscal Year 1995.





 




Return to OIG Home Page